            United States Department of the Interior
                      OFFICE OF INSPECTOR GENERAL
                                Washington, D.C. 20240



                                                                         January 31, 2003

Memorandum

To:       The Secretary

From:     Earl E. Devaney
          Inspector General

Subject: Independent Auditors’ Report on the U.S. Department of the Interior’s Fiscal
         Year 2002 Annual Report on Performance and Accountability
         (No. 2003-I-0014)

        We contracted with KPMG LLP (KPMG), an independent certified public
accounting firm, to audit the Department of the Interior’s (DOI) financial statements as of
September 30, 2002 and for the year then ended. The contract required that KPMG
conduct its audit in accordance with the Comptroller General of the United States of
America’s Government Auditing Standards, the Office of Management and Budget’s
Bulletin 01-02 Audit Requirements for Federal Financial Statements, and the General
Accounting Office/President’s Council on Integrity and Efficiency’s Financial Audit
Manual.

                                AUDIT RESULTS
        In its audit report dated January 28, 2003, (Attachment 1), KPMG issued an
unqualified opinion on DOI’s financial statements for fiscal years 2002 and 2001. The
report also identified 12 internal control weaknesses and 3 instances of noncompliance
with laws and regulations related to the following areas:

INTERNAL CONTROL WEAKNESSES

        Material Weaknesses

           ¾   Security and General Controls Over Financial Management Systems
           ¾   Controls Over Property, Plant, and Equipment
           ¾   Controls Over Financial Reporting
           ¾   Controls to Reconcile Intra-Governmental Transactions and Balances
           ¾   Controls Over Indian Trust Funds
           ¾   Financial Processes at the Geological Survey
       Reportable Conditions

           ¾   Controls Over Undelivered Orders and Accruals
           ¾   Controls for Recording and Disclosing Claims and Assessments
           ¾   Controls Over Environmental Liabilities
           ¾   Controls Over Revenue Process
           ¾   Controls Over Interior Franchise Fund
           ¾   Reporting on Deferred Maintenance

NONCOMPLIANCE WITH LAWS AND REGULATIONS
           ¾ Debt Collection Improvement Act of 1996
           ¾ Public Law 104-208 Advances for Interior Franchise Fund
           ¾ Federal Financial Management Improvement Act of 1996

        Most of the issues identified by KPMG are longstanding weaknesses that were
identified in previous years. For the DOI to make meaningful and significant progress in
correcting these weaknesses, major changes are needed in its financial management
infrastructure. These changes include (1) developing DOI-wide financial policies that all
finance and program offices are required to implement, (2) ensuring that DOI’s policy-
setting representatives have the authority to enforce financial policies and that sufficient
resources are available to monitor compliance with the policies, (3) requiring that
succession planning be done for financial positions to minimize the impact of turnover,
and (4) providing periodic training to finance and program representatives to ensure they
understand and effectively implement Interior’s financial policies. DOI indicated general
concurrence with the findings and recommendations.

        KPMG is responsible for the auditor’s report, dated January 28, 2003. We
monitored the progress of the audit at key points, reviewed KPMG’s report and selected
related working papers, and inquired of its representatives. Our review, as differentiated
from an audit in accordance with the Government Auditing Standards, was not intended
to enable us to express, and we do not express, an opinion on DOI’s financial statements,
conclusions about the effectiveness of internal controls, conclusions on whether DOI’s
financial management systems substantially complied with the three requirements of the
Federal Financial Management Improvement Act of 1996, or conclusions on compliance
with laws and regulations. We continue to review KPMG’s work as the final information
is provided to us. Our review to date has disclosed no instances where KPMG did not
comply, in all material respects, with the Government Auditing Standards.


                     MANAGEMENT CHALLENGES
        We identified, in accordance with Public Law 106-531, Reports Consolidation
Act of 2000, the most serious management challenges facing the DOI. The challenges,
which are discussed in detail in "Management Challenges" (Attachment 2), are in the
following areas:



                                             2
           ¾   Financial Management
           ¾   Information Technology
           ¾   Health, Safety and Emergency Management
           ¾   Maintenance of Facilities
           ¾   Responsibility to Indians and Insular Areas
           ¾   Resource Protection and Restoration
           ¾   Revenue Collections
           ¾   Procurement, Contracts, and Grants

       In accordance with Section 5(a) of the Inspector General Act (5 U.S.C. App. 3),
we will list this report in our semiannual report to the Congress. In addition, a copy of
this report will be provided to the Congress.

     We appreciate the cooperation and assistance of DOI personnel during the audit. If
you have any questions, please contact me at (202) 208-5745.

Attachments (2)




                                             3
                   2001 M Street, NW
                   Washington, DC 20036




                                             INDEPENDENT AUDITORS’ REPORT


Secretary and Inspector General
U.S. Department of the Interior:

We have audited the accompanying consolidated balance sheets of the Department of the Interior (Interior) as
of September 30, 2002 and 2001, the related consolidated statements of net cost and custodial activity for the
years then ended, and the related consolidated statement of changes in net position, combined statement of
budgetary resources, and consolidated statement of financing for the year ended September 30, 2002
(hereinafter referred to as the financial statements). The objective of our audits was to express an opinion on
the fair presentation of these financial statements. In connection with our audits, we also considered Interior’s
internal control over financial reporting and tested Interior’s compliance with certain provisions of applicable
laws and regulations that could have a direct and material effect on its financial statements.

SUMMARY

As stated in our opinion on the financial statements, we concluded that Interior’s financial statements
presented in Interior’s Fiscal Year 2002 Annual Report on Performance and Accountability as of and for the
years ended September 30, 2002 and 2001, are presented fairly, in all material respects, in conformity with
accounting principles generally accepted in the United States of America. As discussed in Notes 21 and 24 to
the financial statements, Interior restated its fiscal year 2001 consolidated balance sheet and statement of net
cost, and its beginning of fiscal year 2002 unobligated budgetary balances. Also as discussed in Note 24 to the
financial statements, Interior changed its method of accounting for allocation transfers as of October 1, 2001.

Our consideration of internal control over financial reporting resulted in the following conditions being
identified as reportable conditions:

Reportable Conditions that are Considered to be Material Weaknesses

A. Security and general controls over financial management systems

B. Controls over property, plant, and equipment

C. Controls over financial reporting

D. Controls to reconcile intra-governmental transactions and balances

E. Indian Trust Fund controls

F. Financial processes at the U.S. Geological Survey


                  KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                  a member of KPMG International, a Swiss association.
Other Reportable Conditions

G. Controls over undelivered orders and accruals

H. Controls for recording and disclosing claims and assessments

I. Controls over environmental liabilities

J. Controls over revenue process

K. Controls over Interior Franchise Fund

L. Deferred maintenance reporting

The results of our tests of compliance with certain provisions of laws and regulations disclosed the
following instances of noncompliance that are required to be reported herein under Government Auditing
Standards, issued by the Comptroller General of the United States, or Office of Management and Budget
(OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements:

M. Debt Collection Improvement Act of 1996

N. Section 113 of Public Law 104-208 – Advances for Interior Franchise Fund

O. Federal Financial Management Improvement Act of 1996 (FFMIA)

The following sections discuss our opinion on Interior’s financial statements, our consideration of
Interior’s internal control over financial reporting, our tests of Interior’s compliance with certain provisions
of applicable laws and regulations, and management’s and our responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheets of Interior as of September 30, 2002 and
2001, and the related consolidated statements of net cost and custodial activity for the years then ended,
and the related consolidated statement of changes in net position, combined statement of budgetary
resources, and consolidated statement of financing for the year ended September 30, 2002.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of Interior as of September 30, 2002 and 2001, and its net costs and custodial activities
for the years then ended, and its changes in net position, budgetary resources, and reconciliation of net
costs to budgetary obligations for the year ended September 30, 2002, in conformity with accounting
principles generally accepted in the United States of America.

As discussed in Notes 21 and 24 to the financial statements, Interior restated its fiscal year
2001 consolidated balance sheet and statement of net cost, and its beginning of fiscal year 2002
unobligated budgetary balances. Also as discussed in Note 24 to the financial statements, Interior changed
its method of accounting for allocation transfers as of October 1, 2001.

The information in the Management’s Discussion and Analysis, Required Supplementary Stewardship
Information and Required Supplementary Information sections is not a required part of the financial
statements, but is supplementary information required by accounting principles generally accepted in the
United States of America or OMB Bulletin No. 01-09, Form and Content of Agency Financial Statements.
We have applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of this information. However, we did not audit this
information and, accordingly, we express no opinion on it.



                                                       2
Based upon our limited procedures, we determined that Interior did not complete the non-fiduciary
intragovernmental reconciliations with its trading partners, as specified by OMB requirements because
Interior’s trading partners did not provide information by Interior component or Treasury fund symbol and
Interior did not designate the appropriate trading partners for certain transactions.

Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
taken as a whole. The consolidating information in the Other Supplementary Information section is
presented for purposes of additional analysis of the consolidated balance sheet and consolidated statement
of changes in net position, rather than to present the financial position and changes in net position of
Interior’s components individually. The consolidating information has been subjected to the auditing
procedures applied in the audits of the financial statements and, in our opinion, is fairly stated in all
material respects in relation to the financial statements taken as a whole.

The other accompanying information included in the Appendices is presented for purposes of additional
analysis and is not a required part of the financial statements. We did not audit this information and,
accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect Interior’s ability to record, process, summarize, and
report financial data consistent with the assertions by management in the financial statements.

Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements, in
amounts that would be material in relation to the financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned functions.

In our fiscal year 2002 audit, we noted certain matters involving internal control over financial reporting
and its operation that we consider to be reportable conditions. We believe that reportable conditions A
through F are material weaknesses.

A. Security and General Controls over Financial Management Systems

   Although Interior is working towards improving the security and controls over information systems,
   controls need to be improved in the areas described below, as required by OMB Circular A-130,
   Management of Federal Information Resources. These conditions could affect Interior’s ability to
   prevent and detect unauthorized changes to financial information, control electronic access to sensitive
   information, and protect its information resources.

    1. Entity-wide Information Technology (IT) Security Program – An entity-wide IT security program,
       including security policies and a related implementation plan, is the foundation of an entity’s
       security control structure and a reflection of senior management’s commitment to addressing
       security risks. As outlined in OMB Circular A-130, an effective security program includes a risk
       assessment process, certification process, and effective incident response and monitoring
       capabilities. Interior is making progress towards establishing a security infrastructure; however,
       continued efforts need to made in assigning security responsibilities, developing and implementing
       security policies and procedures, conducting security awareness training, and in monitoring the
       security program. Without a clear security program, Interior’s systems are vulnerable to
       unauthorized access, use, or loss of sensitive information.



                                                       3
2. Access Controls – Access controls should provide reasonable assurance that computer resources
   such as data files, application programs, and computer-related facilities and equipment are
   protected against unauthorized modification, disclosure, and loss or impairment. Interior needs to
   improve controls over the process of granting, terminating, and monitoring system access in
   specific applications. In addition, Interior has not fully limited access to system information and
   has not finalized and communicated guidelines regarding posting of information on the Internet.

3. Segregation of Duties – Proper segregation of duties should be ensured through the establishment
   of policies, procedures, and organizational structure such that one individual cannot control key
   aspects of financial transactions, and thereby conduct unauthorized actions or gain unauthorized
   access to assets or records. We noted that duties are not properly segregated, because application
   programmers responsible for making changes to customized bureau application software also
   approve these changes and move them into production; security managers perform primary and
   secondary security functions; and technology staff perform change management responsibilities
   and network monitoring.

4. System Software Controls – Controls over the modification of system software change controls
   should provide reasonable assurance that operating system controls are not compromised. Without
   proper system software controls, unauthorized individuals using the system software could
   circumvent controls to read, modify, or delete critical or sensitive information or programs. Interior
   should complete the implementation of the automated system for managing Interior’s software
   library and the automated process for reviewing and securing the implementation of changes to
   software. Once these systems have been fully implemented, Interior needs to develop procedures
   and assign responsibility for monitoring these systems to ensure that system software is adequately
   protected.

5. Software Development and Change Controls – Establishing controls over the modification of
   application software programs helps ensure that only authorized programs and modifications are
   implemented. Without proper change controls, there is an increased risk that either intentional or
   unintended changes are made to the system’s processing functionality, the wrong version of a
   program could be implemented, a virus could be inserted, or built-in security features could be
   disabled. Interior has not fully developed procedures for controlling changes over software that
   would prevent unauthorized programs or modifications to an existing program from being
   implemented. In addition, Interior has not fully developed procedures to ensure that tests of system
   software changes are performed and documented, system software changes are reviewed, and
   approval of changes is documented prior to implementation.

6. Application Controls – Application controls help ensure that transactions are valid, properly
   authorized, and completely and accurately processed and reported. Interior’s accounting system
   incorrectly records certain budgetary transactions resulting in an overstatement of total budgetary
   resources and obligations incurred.

7. Service Continuity – Losing the capability to process, retrieve, and protect information maintained
   electronically could significantly affect Interior’s ability to accomplish its mission. Thus,
   procedures should be in place to protect information resources, minimize the risk of unplanned
   interruptions, and recover critical operations should interruptions occur. Interior has not formalized
   an incident response capability to mitigate the risk of service interruptions.

Recommendation

We recommend that Interior develop and implement a formal action plan to improve the general and
application controls over its financial management systems. This plan should address each of the areas



                                                 4
   discussed above, as well as other areas that might impact the information technology control
   environment to ensure adequate security and protection of Interior’s information systems.

   Management Response

   Management concurs with this finding. IT security is currently being addressed as part of the
   Department’s FMFIA material weaknesses. Substantial progress was made in 2002 and continues.
   Interior will conduct a comprehensive IT security assessment to determine the remaining security and
   control issues in bureaus and offices. Based on these findings, the Interior will develop and implement
   a comprehensive information security plan, including capital budgeting requirements, implement the
   plan on a phased basis, and monitor it under the Department’s Management Control Program.

B. Controls Over Property, Plant, And Equipment

   Interior needs to improve controls over the recording of property, plant, and equipment, as follows:

   1. Capitalization of Assets – Interior does not consistently capitalize property, plant, and equipment.
      Specifically, we determined that Interior capitalized stewardship land, stewardship land
      improvements, heritage asset improvements, and investments in non-federal physical property that
      should have been expensed and conversely, Interior expensed certain property that should have
      been capitalized. In addition, we noted that Interior does not consistently apply its capitalization
      thresholds. Finally, we determined that Interior does not have adequate procedures to determine, at
      the inception of a lease, if it should be accounted for as a capital or an operating lease.

   2. Inventory and Certification Processes – Interior completes annual inventory or certification
      processes to confirm the accuracy, existence, and completeness of certain property, plant, and
      equipment. We noted that the physical inventory and certification processes are not always
      effective, because they do not consistently identify acquisitions and disposals that need to be
      reflected in the financial statements. We also noted that Interior does not consistently adjust the
      general or subsidiary ledgers based on the inventory and certification results timely.

   3. Acquisitions and Disposals – Interior does not consistently record property, plant, and equipment
      in a timely manner. Specifically, we determined that some Interior components expend a
      significant amount of time and resources identifying and recording property, plant, and equipment
      transactions after the end of the fiscal year. Furthermore, we noted that Interior does not
      consistently maintain source documents to support the acquisition and disposal of property, plant,
      and equipment.

   4. Construction in Progress – Interior does not consistently record transactions in its construction in
      progress account. Specifically, we determined that Interior improperly capitalized disbursements in
      the construction in progress account that should have been expensed, expensed disbursements that
      should have been capitalized as construction in progress, and incorrectly recorded revenue as a
      reduction to construction in progress. In addition, we noted that Interior needs to improve
      processes for capturing internal payroll costs and donated labor related to the construction of
      property. We also determined that Interior does not consistently transfer completed construction
      projects at the time the asset is placed in service or consistently expense projects that will no
      longer provide any future benefit. When transfers are made, Interior does not consistently reconcile
      the transfers from the construction in progress account to the appropriate property, plant, and
      equipment account.

   5. Transfers – Interior does not have controls to ensure property transferred within and to Interior is
      consistently recorded. We also noted that equipment transferred from other federal agencies is
      recorded at the original acquisition value, instead of the net book value or fair value at the time of
      the transfer, as required.


                                                    5
6. Land and Land Rights – Interior does not have a complete and accurate inventory system for
   Bureau of Reclamation land and land rights. In fiscal year 2000, Interior established a five-year
   action plan to develop a complete and accurate inventory of land and land rights. As of September
   30, 2002, Interior expects to complete the inventory system within the five-year period.

7. Recording Depreciation – Interior has not established and implemented controls to ensure
   depreciation starts when assets are placed in service and to ensure useful lives of property and
   improvements to property are consistently applied for the purposes of recording depreciation. We
   also determined that depreciation is not always calculated properly, and that certain segments
   within Interior do not calculate or record depreciation until the end of the year.

8. Reconciliation of Subsidiary Ledgers to General Ledgers – Interior is not able to efficiently
   reconcile its subsidiary and general ledgers for property, plant, and equipment. This is because
   Interior does not consistently maintain and reconcile its subsidiary ledgers throughout the fiscal
   year and has several different subledgers, including manual spreadsheets, that add to the
   complexity of the reconciliation process.

As a result of our observations, Interior expended a significant amount of time and resources analyzing,
counting, reconciling, and adjusting property, plant, and equipment to ensure the amounts were fairly
stated.

Recommendations

We recommend that Interior perform the following to improve controls over its property, plant and
equipment:

1. Capitalization of Assets – We recommend that Interior develop a formal property, plant and
   equipment capitalization policy to be used by all Interior components. This policy should indicate
   the types of disbursements that should be capitalized, expensed as acquisition and improvements to
   stewardship land, expensed because it is incidental to the acquisition of stewardship land, expensed
   as acquisition and improvements to heritage assets, and expensed as investments in non-federal
   physical property. This policy should also indicate the capitalization thresholds to be used for each
   property category. We also recommend that Interior establish procedures to determine, at the
   inception of the lease, if the lease should be accounted for as a capital or operating lease. Interior
   should also establish a database to track and monitor all operating and capital leases to enable
   Interior to properly report this information in its financial reports. Finally, we recommend that
   Interior communicate the property policy and lease procedures by providing training to individuals
   at all the bureaus regarding implementing the property policy and lease procedures.

2. Inventory and Certification Processes – We recommend that Interior improve its inventory and
   certification processes to verify accuracy, existence, and completeness of property, plant and
   equipment. Interior should establish required inventory and certification policies and train
   individuals on how to perform inventories. We also recommend that Interior record adjustments to
   the subsidiary and general ledgers as a result of the inventory observations in a more timely
   manner.

3. Acquisitions and Disposals – We recommend that Interior implement internal controls to ensure
   that property, plant, and equipment transactions are recorded in the subsidiary ledger and general
   ledger at the time the financial event occurs and at the proper amount. We also recommend that
   Interior maintain source documents related to property plant and equipment acquisitions and
   disposals.

4. Construction in Progress – We recommend that Interior establish and communicate policies
   defining the types of transactions that should be recorded in the construction in progress account


                                                 6
       versus expense accounts. We also recommend that Interior establish controls to ensure that
       construction in progress transactions are properly recorded. These controls should include
       verifying that transactions are properly recorded and supported, completed projects are properly
       transferred from the construction in progress account, and transfers from the construction in
       progress account reconcile to the other property accounts on a monthly basis. These controls
       should also include procedures for capturing internal payroll costs and donated labor related to the
       construction of property.

   5. Transfers – We recommend that Interior review accounting transactions to ensure that assets
      transferred within and to Interior are properly recorded. This should include implementing posting
      models to properly record property transferred within Interior and revising the procedures to
      properly record property received from others at net book value of the transferring entity or fair
      value of the asset on the date of transfer.

   6. Land and Land Rights – We recommend that Interior complete the five-year action plan to
      establish a complete and accurate inventory of land and land rights and to reconcile the inventory
      records (i.e., subsidiary ledger) to the general ledger.

   7. Recording Depreciation – We recommend that Interior design, communicate, and implement
      internal controls to ensure that depreciation begins when assets are placed in service and useful
      lives are consistently applied. The process should establish useful lives of newly
      constructed/purchased property, property received and previously owned by other entities,
      improvements to property, and changes in useful lives of improved property. The process should
      also include improving the communication between the Interior financial departments and the
      managers, purchasers, and users of the property.

   8. Reconciliation of Subsidiary Ledgers to General Ledgers – We recommend that Interior consider
      consolidating several of its subsidiary property systems. We also recommend that Interior
      reconcile its subsidiary and general ledgers on a monthly basis, including resolving any reconciling
      items.

   Management Response

   Management concurs with this finding and recognizes certain inconsistencies among bureaus related to
   property policies and the need to improve real and personal property management. The Department has
   established a team of property and finance personnel to address standardizing real and personal
   property policies to be implemented for FY 2004. However, certain systems issues will not be
   addressed until the new systems are implemented under the Finance and Business Management
   Systems Project.

C. Controls over Financial Reporting

   Interior needs to improve controls over the recording and reporting of financial transactions as follows:

   1. Financial Policies and Resources – Interior’s financial processing is very decentralized as key
      financial transactions are initiated and processed by individuals located throughout finance and
      program offices. We also noted that Interior has not fully developed and communicated its
      financial policies. In addition, the policy-setting offices do not always have the authority to enforce
      and the resources to monitor compliance with financial polices. Furthermore, Interior’s financial
      positions have experienced turnover and extended vacancies causing reassignment of critical
      financial functions to existing employees who already have full workloads.

   2. Transaction Entry – Interior does not consistently utilize automated posting models to minimize
      manual entries. In addition, Interior does not consistently ensure manual entries are properly


                                                     7
    recorded. Finally, Interior does not consistently record entries throughout the year. As a result,
    Interior’s interim financial information is not consistently complete or accurate and Interior
    expends a significant amount of time and resources recording transactions after the end of the year.

3. Reconciliation – Interior does not consistently reconcile subsidiary ledgers to general ledgers,
   budgetary to proprietary accounts, the statement of financing to other statements or consistently
   resolve reconciling differences in a timely manner. In addition, we noted that certain Interior
   segments did not ensure that interim SF-133 Reports on Budget Execution and Budgetary
   Resources were properly reconciled to the general ledger or interim general ledger balances for
   investments and fund balance with Treasury were properly reconciled to Treasury’s records.
   Furthermore, Interior does not consistently investigate and resolve aged accounts, suspense
   accounts, or accounts with unusual balances, timely.

4. Activity-based costing – Interior does not consistently apply activity-based costing methodologies
   to allocate costs in accordance with accounting standards. Specifically, we determined that Interior
   has not fully developed activity-based costing policies and that certain Interior components do not
   code transactions in the accounting system to facilitate activity-based costing at the customer and
   program level. Furthermore, Interior components do not consistently capture costs in the
   accounting systems to enable them to efficiently report GPRA program activity in accordance with
   the Department’s Annual Performance Plans.

5. Grant monitoring – Interior requests grant performance reports and related SF-269, Financial
   Status Reports, from grant recipients; however, Interior does not perform sufficient monitoring to
   ensure grant recipients submit these reports, timely. Interior uses the grant performance reports as
   the primary source for the required disclosure of certain investments in non-federal physical
   property and uses the SF-269s to help ensure that expenses are recorded in the proper period and
   funds are de-obligated at the end of the grant period.

As a result of our observations, Interior expended a significant amount of time and resources analyzing,
reconciling, and adjusting its financial statement balances to ensure the amounts were fairly stated.

Recommendations

We recommend that Interior perform the following, to improve the recording and reporting of financial
transactions:

1. Financial Policies and Resources – We recommend that Interior develop Department-wide
   financial policies that all finance and program departments are required to implement. In addition,
   we recommend that Interior provide the policy-setting representatives the authority to enforce
   financial policies and ensure the finance departments have the resources needed to monitor
   compliance with policies. We also recommend that Interior implement succession planning for
   financial positions to minimize the impact of turnover. Finally, Interior should provide periodic
   training to finance and program representatives to ensure they understand and effectively
   implement Interior’s financial policies.

2. Transaction Entry – We recommend that Interior record transactions during the year at the time the
   transactions are incurred, and utilize automated posting models throughout the year as well as
   during the year-end reporting process. For manual journal entries, we recommend that Interior
   have a second individual review the entries to ensure that they are accurate and complete, prior to
   posting.

3. Reconciliation – We recommend that Interior develop and implement formal month-end and
   quarter-end financial reporting processes to reconcile subsidiary ledgers to general ledgers, SF-133
   reports to the general ledger, Treasury’s records to the general ledger, the statement of financing to


                                                 8
       other statements, and the budgetary to proprietary relationships as appropriate. Interior should also
       investigate and resolve old account balances, suspense account items, and accounts with unusual
       balances, timely.

   4. Activity-based costing – We recommend that Interior develop and implement an activity-based
      costing methodology to accumulate costs in accordance with the Department's Annual
      Performance Plans. We also recommend that Interior establish an account code structure to track
      costs consistent with activity-based costing in its accounting system. Furthermore, we also
      recommend that Interior establish controls to ensure costs are properly charged to its customers.

   5. Grant monitoring – We recommend that Interior require grant recipients to submit grant
      performance reports and related SF-269s prior to receiving new grants.

   Management Response

   Management concurs with this finding. Interior will include the issues identified above in its efforts to
   improve financial management for 2003 and will address the activity-based cost issues identified in its
   initiative to implement activity-based costing consistently across the Department.

D. Controls to Reconcile Intra-governmental Transactions and Balances

   Interior needs to improve controls to reconcile its intra-departmental and intra-governmental activity
   and balances.

   1. Intra-governmental Transactions – Interior reconciles its fiduciary intra-governmental transactions
      and balances; however, Interior has not reconciled its non-fiduciary intra-governmental
      transactions and balances, because its trading partners did not consistently provide information by
      Interior component or Treasury fund symbol. In addition, Interior did not designate the appropriate
      trading partner codes for certain transactions. Furthermore, Interior does not consistently determine
      the costs incurred to generate intra-governmental revenue. As a result, Interior’s transactions and
      balances with other federal entities may not properly eliminate on the government-wide financial
      statements. We also recommend that Interior code intra-governmental transactions and balances to
      the appropriate trading partners.

   2. Intra-departmental Transactions – Interior does not reconcile its intra-departmental transactions
      and balances, timely. We noted that this is a manual reconciliation process, and that Interior
      expended a significant amount of time and resources completing this reconciliation after the end of
      the year.

   Recommendations

   We recommend that Interior improve the process to identify and reconcile the intra-departmental and
   intra-governmental activity and balances, as follows:

   1. Intra-departmental Transactions – We understand that Interior is developing an automated process
      to facilitate the reconciliation of intra-Departmental transactions. We recommend that Interior
      complete and implement this automated process. Until the automated process is implemented, we
      recommend that Interior improve the manual process to reconcile intra-departmental activity and
      balances.

   2. Intra-governmental Transactions – We recommend that Interior establish procedures to reconcile
      non-fiduciary transactions and balances with other federal entities. We also recommend that
      Interior consistently code transactions to the appropriate trading partners and determine costs
      incurred to generate intra-governmental revenue.


                                                    9
   These reconciliation processes should be completed quarterly and should include procedures to resolve
   any differences identified, timely.

   Management Response

   Management concurs with this finding. Interior will continue to improve intra-governmental
   transaction processing begun in 2002. This effort includes addressing the issues identified above.

E. Indian Trust Fund Controls

   The U.S. Congress has designated the Secretary of the Interior as the primary fiduciary with
   responsibility for monetary resources held in trust on behalf of American Indian Tribes, Individual
   Indians, and Other Trust Funds (hereafter collectively referred to as the Indian Trust Funds). The
   Secretary carries out this fiduciary responsibility through the Office of the Special Trustee (OST), the
   Bureau of Indian Affairs (BIA), and other Interior bureaus.

   The Indian Trust Fund balances include balances considered federal funds and balances considered
   non-federal funds. The amounts considered federal funds are reflected in Interior’s financial statements,
   while the non-federal trust funds are not reflected in Interior’s financial statements. However, the
   Indian Trust Funds' transactions and balances are disclosed in a footnote to the Interior’s financial
   statements, in accordance with federal accounting standards.

   We noted that the procedures and internal controls are not adequate to ensure that the Indian Trust
   Fund activity and balances are recorded properly or timely. We noted the following weaknesses:

   1. Cash Balances – OST is unable to reconcile the Indian Trust Fund cash balances that are disclosed
      in the footnotes to the Department of the Interior’s financial statements with the cash balances
      reported by the U.S. Treasury. The Indian Trust Fund cash balances are approximately $33 million
      greater than balances reported by the U.S. Treasury as of September 30, 2002 and 2001. In
      addition, OST needs to resolve approximately $12.6 million of balances in Treasury suspense and
      budget clearing accounts as of September 30, 2002 and 2001.

   2. Trust Fund Balances – OST is unable to provide accounting records to properly support the Indian
      Trust Fund balances. For example, the Individual Indian Monies (IIM) trust fund balances in the
      subsidiary ledger exceed the balance in the control account by approximately $6 million and
      $6.7 million as of September 30, 2002 and 2001, respectively. In addition, the Individual Indian
      Monies subsidiary ledger contains negative trust fund balances of approximately $44 million as of
      September 30, 2002 and 2001. OST also is in the process of investigating and resolving
      undistributed interest. Furthermore, certain account holders do not agree with the trust fund
      balances and have filed claims against the U.S. Government and Department of the Interior, that
      remain unresolved.

   3. Special Deposit Accounts – In accordance with section 25 of the Code of Federal Regulations,
      OST records receipts into a special deposit account within the IIM subsidiary ledger when the
      recipient trust fund account is unknown at time of receipt. When BIA identifies the proper trust
      fund account, OST transfers the amount from the special deposit account to the proper trust fund
      account in accordance with BIA instructions. During fiscal years 2002 and 2001, OST in
      conjunction with the BIA and a contractor, developed a formal plan to address special deposit
      accounts. The Department needs to resolve approximately $62 million and $67 million of special
      deposit accounts included in the IIM subsidiary ledger as of September 30, 2002 and 2001,
      respectively. A significant number of special deposit accounts have remained inactive for the past
      several years and new accounts continue to be established.




                                                    10
   4. Trust Fund Information Systems –Interior needs to improve security and general controls over the
      Trust Fund information systems. Specifically, Interior needs to develop and implement a security
      policy and program, improve segregation of duties, accredit and certify its general and application
      systems, strengthen controls to prevent unauthorized access, and establish formal application
      software development and change controls.

   5. Appraisal Compacts – One of the key elements in performing realty trust transactions is the
      requirement of obtaining appraisals for realty transactions. OST has a fiduciary duty to land title
      owners and monetary property recipients (e.g., life estate holders) to establish the fair value of
      property transactions, including establishing the fair value of property leases, before entering into
      lease agreements or sales transactions on behalf of the owners. Current laws allow the appraisal
      function to be compacted to tribes, who are often the named parties involved in realty transactions.
      As a result, transactions are consummated based on prices established or influenced by the
      eventual beneficial owners of the property. Controls are not in place to ensure that the fair value of
      property transactions are established by parties independent of the transaction.

   6. Entering and Maintaining Trust Fund Information – The regional and agency offices of the Bureau
      of Indian Affairs (BIA) perform a critical role in the initial input and subsequent changes to the
      Indian Trust Funds information disclosed by Interior. We noted the following weaknesses related
      to the internal controls performed by regional and agency offices:

        a. Segregation of Duties – The responsibilities for trust fund processing are not properly
           segregated to prevent or detect errors. Specifically, in some locations an individual employee
           has the ability to initiate lease agreements; generate annual billings for property leases; collect
           payment for leases; send instructions to OST to create IIM accounts; and send instructions to
           OST via a change order directing OST to change the named monetary property recipients and
           IIM accounts to which future collections should be posted.

        b. Probate Backlog – The probate orders for land title are not entered into the trust management
           systems timely. One location has a probate backlog that is over a year old. This results in the
           potential for inaccurate distributions of lease income to the Indian Trust Fund account holders.

        c. Untimely Deposits – We determined that agency offices did not consistently forward trust
           receipts to OST in a timely manner. Some of these delays occurred at agency offices where
           OST and BIA personnel reside and other delays occurred at agency offices occupied by BIA
           personnel only.

   Recommendation

   We recommend that Interior develop and implement procedures and internal controls to address these
   deficiencies.

   Management Response

   Management concurs with this finding. A variety of actions are underway within the Department of
   the Interior to correct these deficiencies.

F. Financial Processes at the U.S. Geological Survey

   The U.S. Geological Survey does not have adequate procedures and internal controls to ensure that its
   financial transactions are recorded properly or timely. We noted that the U.S. Geological Survey
   financial management processes are not designed to facilitate recording financial transactions. U.S.
   Geological Survey headquarters accounting personnel are not sufficiently integrated into the
   decentralized accounting structure to establish effective policy and controls as well as provide needed


                                                     11
   financial management oversight. In addition, U.S. Geological Survey does not have the financial
   personnel needed to manage accounting operations and ensure financial transactions are properly
   recorded and reported throughout the year. As a result, Interior expended a significant amount of time
   and resources reconciling and supporting financial statement balances as a result of our audit
   procedures.

   Recommendation

   We recommend that Interior develop and implement procedures and internal controls to ensure that
   U.S. Geological Survey financial transactions are recorded properly and timely during the year.
   Specifically, Interior should:

   1. Re-design the financial processes at U.S. Geological Survey to ensure that they support recording
      financial transactions accurately and at the time the events occur.

   2. Improve the finance department at U.S. Geological Survey to ensure that it has effective
      leadership, federal accounting experience, and authority to enforce financial policies.

   Management Response

   Management concurs with this finding. Currently, efforts are underway to correct these deficiencies
   during 2003.

G. Controls over Undelivered Orders and Accruals

   Interior has not fully implemented internal controls to ensure that obligations are liquidated and
   liabilities are accrued for goods and services received prior to the end of the reporting period. In
   addition, Interior does not de-obligate funds in a timely manner. Specifically, we identified instances
   where the undelivered order balance and the accrued liability balance were either understated or
   overstated. As a result, Interior re-analyzed the undelivered order and accrued liability balances and
   adjusted the balances, appropriately.

   Recommendations

   We recommend that Interior:

   1. Develop and communicate internal controls to ensure that accruals are recorded and undelivered
      orders are adjusted for services and products received prior to the end of the reporting period.

   2. Implement internal controls to ensure that the accruals and undelivered orders that are recorded are
      properly supported. These procedures should be completed at least quarterly.

   Management Response

   Management concurs with this finding. In 2002, the National Park Service successfully piloted an
   approach to improve accrual processing. This approach will be reviewed as a possible standard for
   other bureaus to improve accrual processing. In 2003, the Department will be including full accruals as
   part of the quarterly financial statement reporting process.




                                                   12
H. Controls for Recording and Disclosing Claims and Assessments

   Interior has not fully implemented internal controls to ensure that claims and assessments are properly
   accrued or disclosed in the financial report. Specifically, we determined the following:

   1. Communication with Solicitor – The financial management departments do not consistently
      communicate with the solicitor’s office regarding claims and assessments. As a result, financial
      management departments generally do not receive or review any formal reports on the status of
      claims and assessments until after the end of the year.

   2. Claims and Assessment System – Interior does not have an automated system to monitor claims
      and assessments and, therefore, relies on a time-intensive manual data collection process to
      summarize the claims and assessments for the year-end financial reporting process.

   3. Consistency of Information Received from Solicitor – The claims and assessment information
      provided by the Solicitor for the year-end financial reporting process is not always complete and
      accurate. As a result, Interior spent a significant amount of time revising the year-end claim and
      assessment information and determining the claims and assessments that should be accrued and
      disclosed.

   Recommendations

   We recommend that Interior improve internal controls to ensure that claims and assessments are
   properly accrued or disclosed in the financial report as follows:

   1. Communication with Solicitor – We recommend that the solicitor’s office provide to Interior’s
      financial management departments a quarterly analysis of all legal claims and assessments and
      record an accrual or prepare a disclosure for inclusion in the interim and year end financial
      statements. In addition, the solicitor’s office should provide updates, more frequently than
      quarterly, on the status of major cases to Interior’s financial management departments.

   2. Claims and Assessment System – We recommend that Interior implement an automated system
      that contains the information needed to monitor and report on claims and assessments for
      management and financial reporting purposes.

   3. Consistency of Information Received from Solicitor – We recommend that Interior establish
      internal controls to ensure that the claims and assessment information provided by the Solicitor for
      the year-end financial reporting process includes all claims and assessments, properly and clearly
      indicates the status of the case, and includes the estimated range of loss.

   Management Response

   Management concurs with this finding. Interior worked with the Office of the Solicitor to streamline
   the tracking of legal claims and assessments to accrue or disclose information in the year-end financial
   report. Improvements in this process will continue in 2003.

I. Controls over Environmental Liabilities

   We noted that Interior has not fully developed policies and procedures for estimating environmental
   liabilities. Specifically, we determined the following:

   1. Guidance – Interior does not have a Departmental prioritized list of cleanup activities, planned cost
      studies, and projects by risk score factor. In addition, Interior does not provide sufficient direction
      to regional locations to prepare and submit funding requests and to communicate funding results
      back to the regions. Furthermore, Interior does not have policies to ensure identification of the


                                                    13
       responsible party for environmental liabilities on Interior approved leased properties or properties
       transferred to Tribal authorities.

   2. Estimation Process – Interior does not consistently apply the same methodology to estimate
      liabilities, consistently refine the estimates, or record material changes in estimates throughout the
      year. In addition, Interior does not always involve the appropriate environmental personnel or
      specialists to assess environmental cleanup needs and estimate environmental liabilities.
      Furthermore, Interior needs additional specialists to assist with the estimation process and monitor
      cleanup efforts.

   As a result of our observations, Interior analyzed and adjusted its environmental liabilities to ensure the
   amounts were fairly stated

   Recommendations

   We recommend that Interior improve its policies and procedures over environmental liabilities, as
   follows:

   1. Guidance – We recommend that Interior develop a Departmental prioritized cleanup plan that
      includes all known areas of contamination and the potential responsible parties. In addition,
      Interior should develop and communicate policies on preparing and submitting funding requests
      and identifying the parties responsible for cleanup.

   2. Estimation Process – We recommend that Interior require its components to apply the same
      methodology to estimate liabilities, refine the estimates periodically, and record changes in
      estimates throughout the year. We also recommend that Interior consider hiring additional
      environmental specialists to assist with the estimation process and to monitor cleanup efforts.

   Management Response

   Management concurs with this finding. The Department will investigate approaches to improve
   reporting on environmental liabilities under applicable rules and regulations to the extent possible with
   available resources.

J. Controls over Revenue Process

   Interior needs to improve controls over the revenue process as follows:

   1. Recording Activity - Interior does not consistently review revenue transactions to ensure that they
      are properly recorded. Specifically, we identified the following:

        a. Transactions recorded at the customer level instead of at the agreement level;

        b. Reimbursable agreements, collections, and revenue recorded at the incorrect amount;

        c. Billings in excess of customer agreements or in excess of expenses incurred;

        d. Increases in accounts receivables that should be reductions of advances from others;

        e. Expenses charged to the improper agreements; and

        f. Revenue recorded in the improper period.

   2. Billing - Interior does not consistently issue bills in a timely manner. Specifically, we identified
      certain accounts that have not been billed for over twelve months. We also noted that Interior
      manually prepares certain bills, which increases the risk of error.

                                                     14
   3. Account Monitoring - Interior does not consistently analyze its balances of accounts receivable and
      advances from others. Specifically, we noted customer agreements with both an accounts
      receivable and an advances from others balance, accounts with unusual and older balances, and
      advance balances for projects that have ended and need to be returned to customers.

   4. Documentation - Interior does not consistently maintain supporting documentation for
      reimbursable agreements. Specifically, we determined that agreements are not consistently signed,
      agreements do not consistently include fees to be charged to customers, and documentation
      supporting the related agreement revenue and expense is not always available.

   As a result of our comments, Interior performed a detailed analysis of revenue transactions and
   adjusted the balances appropriately.

   Recommendations

   We recommend that Interior improve controls over the revenue process as follows:

   1. Recording Activity – We recommend that Interior establish controls to ensure that transactions are
      recorded in the proper account, at the proper amount, and in the proper period. These controls
      should include system controls to automatically record transactions in the proper accounts as well
      as to prevent billings in excess of customer agreement amounts and in excess of expenses incurred.
      These controls should also include periodic inspections by a second individual to ensure
      transactions are properly recorded.

   2. Billing – We recommend that Interior continue to automate the billing process and issue bills on a
      regular basis.

   3. Account Monitoring – We recommend that Interior investigate and resolve customer agreements
      with both an accounts receivable and an advances from others balance, investigate and resolve
      accounts with unusual balances, review and collect older accounts receivable balances, and return
      advance balances for projects that have ended, monthly. We also recommend that Interior
      configure its accounting systems to prevent customer accounts from having both an accounts
      receivable and an advances from others balance.

   4. Documentation – We recommend that Interior obtain signed customer agreements, document the
      fees charged in the customer agreements, and maintain documentation supporting transactions
      related to these agreements.

   Management Response

   Management concurs with this finding. The finding relates to services provided to other organizations
   on a reimbursable basis. Efforts to improve controls over revenue processing for reimbursable activities
   will include reviewing current practices and making modifications, as appropriate.

K. Controls over Interior Franchise Fund

   Interior Franchise Fund (IFF) is a “virtual organization” that utilizes personnel from both of its service
   providers. Although several personnel are fully dedicated to working on IFF activity, there are several
   personnel who only spend part of their time working on IFF activity. As a result of utilizing personnel
   from different service organizations, IFF does not have clear lines of responsibility or reporting and IFF
   activity does not consistently receive the same priority as the other activity processed by the service
   providers. We also determined that IFF did not record and reconcile transactions throughout the year
   and incorrectly recorded certain transactions. As a result, IFF expended a significant amount of time
   and resources analyzing and adjusting transactions during the year-end reporting process.


                                                    15
   Recommendation

   We understand that Interior is in the process of re-organizing responsibilities of IFF. We recommend
   that Interior complete this re-organization process, ensure there is appropriate staffing to complete the
   day-to-day accounting processing during the year, and establish internal controls to ensure transactions
   are recorded properly.

   Management Response

   Management concurs with this finding. The Department is taking the appropriate action to implement
   this recommendation.

L. Deferred Maintenance Reporting

   Interior has not fully established controls to identify and report deferred maintenance. We noted that
   Interior has not completed condition assessments for certain assets and, therefore, has not properly
   disclosed all deferred maintenance amounts. In addition, Interior does not report deferred maintenance
   by major asset category, and has not defined acceptable operating conditions for each major class of
   assets.

   Recommendation

   We recommend that Interior develop and implement internal controls to ensure that condition
   assessments are completed following a standard methodology and on a regular basis, deferred
   maintenance is calculated for each asset following a standard methodology, and condition and deferred
   maintenance information is summarized and reported by major asset category.

   Management Response

   Management concurs with this finding. Interior has identified “Department-wide Maintenance
   Management Capability” as a mission critical FMFIA material weakness. The corrective action plan
   includes implementing a comprehensive maintenance management system and appropriate linkages to
   the accounting systems, conducting comprehensive condition assessments, implementing a five-year
   deferred maintenance and capital improvement plan and utilizing a capital asset planning process. This
   process is underway. A new system is being implemented and condition assessments being conducted
   in all bureaus. The deferred maintenance and capital improvement plan has been in place for several
   years and the capital asset planning process was modified to be more effective in 2002.

                                          *******************

A summary of the status of prior year reportable conditions is included as Exhibit I.

COMPLIANCE WITH LAWS AND REGULATIONS

Our tests of compliance with certain provisions of laws and regulations, as described in the Responsibilities
section of this report, exclusive of the FFMIA, disclosed the following instances of noncompliance with
the following laws and regulations that are required to be reported under Government Auditing Standards
and OMB Bulletin No. 01-02.

M. Debt Collection Improvement Act of 1996

   In accordance with the Debt Collection Improvement Act of 1996, Interior is required to refer eligible
   receivables that are delinquent to the U.S. Department of the Treasury for collection or offset. Eligible
   receivables include those that are not the subject of litigation, related to foreclosure proceedings, or



                                                     16
   from organizations in bankruptcy. We determined that Interior did not consistently refer Bureau of
   Indian Affairs receivables that are over 180 days delinquent to the U.S. Department of the Treasury.

   Recommendation

   We recommend that the Interior establish a process, in fiscal year 2003 to ensure eligible receivables
   are referred to the U.S. Department of the Treasury in a timely manner.

   Management Response

   Management concurs with this finding. The Department has been working with the Bureau of Indian
   Affairs for a number of years and has made steady improvement. However, further work remains and
   the Department is committed to continue these efforts to bring Interior into full compliance with the
   related provisions of the Debt Collection Improvement Act.

N. Section 113 of Public Law 104-208 – Advances for Interior Franchise Fund

   In accordance with Section 113 of Public Law 104-208, Interior is required to obtain advances from
   customers before costs are incurred to provide goods or services to the customer. We determined that
   Interior does not consistently obtain advances from customers as Interior Franchise Fund had accounts
   receivable of approximately $78 million as of September 30, 2002.

   Recommendation

   We recommend that Interior require customers to pay in advance, in accordance with the law or
   consider requesting the U.S. Congress to change the law governing this requirement.

   Management Response

   Interior developed, with approval by the Office of Management and Budget, appropriation language
   establishing the Interior Franchise Fund applying the Government Management Reform Act that
   created the franchise fund pilot program and guidelines provided by the Office of Management and
   Budget. The intent of the pilot program was to allow these franchise funds to provide quality services at
   reduced costs to Federal agencies through competition. Interior does not believe the recommended
   appropriation language was intended to require advances for all services, but was intended to allow the
   pilot program to receive advances so that the organizations could operate in a more business like
   manner. However, Interior can see how the existing language could be interpreted as described above.
   Interior is working with the Office of Management and Budget and Congress to adjust the
   appropriation to support the intent of the Government Management Reform Act objectives.

O. Federal Financial Management Improvement Act of 1996

   The results of our tests of FFMIA disclosed instances, described below, where Interior’s financial
   management systems did not substantially comply with the Federal financial management systems
   requirements, federal accounting standards, and the United States Government Standard General
   Ledger at the transaction level.

   1. Federal Financial Management Systems Requirements – As discussed in the Internal Control over
      Financial Reporting section of this report, Interior has several weaknesses in its information
      technology general control environment that contribute to noncompliance with OMB Circular A-
      130. Interior needs to improve security policies and related training, monitor the security program,
      strengthen access controls, segregate information technology duties, fully develop and implement
      procedures for controlling changes to software, configure its accounting system to properly record




                                                    17
    budgetary recoveries, and formalize its incident response processes. As a result, Interior does not
    substantially comply with the system requirements of FFMIA.

2. Federal Accounting Standards – Interior is required to prepare its financial statements in
   accordance with federal accounting standards. As discussed in the Internal Control over Financial
   Reporting section of this report, we identified weaknesses that affected Interior’s ability to prepare
   its financial statements and related disclosures in accordance with federal accounting standards.
   Specifically, we determined that Interior needs to improve controls over property plant and
   equipment, financial reporting, intra-governmental transactions, Indian trust funds, and financial
   processes at the U.S. Geological Survey.

3. United States Standard General Ledger at the Transaction Level – In accordance with OMB
   Circular A-127, Financial Management Systems, Interior is required to record financial events
   consistent with the applicable account descriptions and attributes reflected in the United States
   Standard General Ledger (SGL) at the transaction level. We noted that one of Interior’s accounting
   systems (i.e., Federal Financial System) incorrectly records budgetary recoveries for certain
   transactions resulting in an overstatement of total budgetary resources and obligations incurred. As
   a result, Interior recorded correcting entries at the summary level. We also determined that certain
   posting models related to royalty transactions are not consistent with Treasury’s guidance and
   therefore Interior must manually adjust these balances for reporting purposes. Furthermore, we
   determined that Interior records certain receivables and property, plant, and equipment in the
   general ledger at a summary level, rather than at the transaction level.

Recommendations

1. Federal Financial Management Systems Requirements – We recommend that during fiscal year
   2003, Interior improve the security and general controls over its financial management systems to
   meet the requirements set forth in OMB Circular A-130.

2. Federal Accounting Standards – We recommend that during fiscal year 2003, Interior implement
   strengthened procedures and internal controls that ensure the financial statements and related
   disclosures are prepared in accordance with the federal accounting standards.

3. United States Standard General Ledger at the Transaction Level – We recommend that during
   fiscal year 2003, Interior analyze the budgetary recovery entries generated by the accounting
   system and record correcting entries at the transaction level, in accordance with the SGL. We also
   recommend that Interior revise its process for recording receivables, royalties, and property, plant
   and equipment during fiscal year 2003, to ensure that this activity is recorded consistent with the
   SGL at the transaction level.

Management Response

Management concurs with this finding. Efforts are underway to improve information technology
security and general controls for the Department that effect financial management systems (see also
management’s response to item A above). Efforts are underway to strengthen procedures and internal
controls to ensure financial statements and related disclosures are prepared in accordance with federal
accounting standards at all levels in the Department (see also management’s response to items B, C, D,
E, and F above). Efforts are underway to improve compliance with the SGL in the isolated cases where
non-compliance issues may exist in the Department that are now being corrected through manual
procedures, however, the system changes necessary to reach full compliance are dependent on the
implementation of the Finance and Business Management Systems project.




                                                 18
RESPONSIBIILITIES

Management’s Responsibilities

The Government Management Reform Act of 1994 (GMRA) requires each federal agency to report
annually to Congress on its financial status and any other information needed to fairly present its financial
position and results of operations. To meet the GMRA reporting requirements, Interior prepares annual
financial statements.

Management is responsible for:

•   Preparing the financial statements in conformity with accounting principles generally accepted in the
    United States of America;

•   Establishing and maintaining internal controls over financial reporting, and preparation of the
    Management’s Discussion and Analysis (including the performance measures), the Required
    Supplementary Information, and the Required Supplementary Stewardship Information, and

•   Complying with laws and regulations, including FFMIA.

In fulfilling this responsibility, estimates and judgments by management are required to assess the expected
benefits and related costs of internal control policies. Because of inherent limitations in internal control,
misstatements, due to error or fraud may nevertheless occur and not be detected.

Auditors’ Responsibilities

Our responsibility is to express an opinion on the financial statements of Interior based on our audits. We
conducted our audits in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in Government Auditing Standards, and
OMB Bulletin No. 01-02. Those standards and OMB Bulletin No. 01-02 require that we plan and perform
the audits to obtain reasonable assurance about whether the financial statements are free of material
misstatement.

An audit includes:

•   Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
    statements;

•   Assessing the accounting principles used and significant estimates made by management, and

•   Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2002 audit, we considered Interior’s internal control over
financial reporting by obtaining an understanding of Interior’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin No. 01-02 and Government Auditing Standards. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982. The objective of our audit was not to provide assurance on internal control over financial
reporting. Consequently, we do not provide an opinion thereon.




                                                     19
As required by OMB Bulletin No. 01-02, we considered Interior’s internal control over required
supplementary stewardship information by obtaining an understanding of Interior’s internal control,
determining whether these internal controls had been placed in operation, assessing control risk, and
performing tests of controls. Our procedures were not designed to provide assurance on internal control
over the Required Supplementary Stewardship Information and, accordingly, we do not provide an opinion
thereon.

As further required by OMB Bulletin No. 01-02, with respect to internal control related to performance
measures determined by management to be key and reported in the Management’s Discussion and
Analysis, we obtained an understanding of the design of significant internal controls relating to the
existence and completeness assertions. Our procedures were not designed to provide assurance on internal
control over performance measures and, accordingly, we do not provide an opinion thereon.

As part of obtaining reasonable assurance about whether Interior’s fiscal year 2002 financial statements are
free of material misstatement, we performed tests of Interior’s compliance with certain provisions of laws
and regulations, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 01-02, including certain provisions referred to in FFMIA. We limited our tests of compliance
to the provisions described in the preceding sentence, and we did not test compliance with all laws and
regulations applicable to Interior. Providing an opinion on compliance with laws and regulations was not
an objective of our audit and, accordingly, we do not express such an opinion.

Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether Interior’s financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements.

DISTRIBUTION

This report is intended for the information and use of Department of the Interior’s management,
Department of the Interior’s Office of the Inspector General, OMB, and the U.S. Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




January 28, 2003




                                                    20
                                                                                     Exhibit I
                       U.S. DEPARTMENT OF THE INTERIOR

                       Summary of the Status of Prior Year Findings
                                   September 30, 2002




Ref   Condition Area                                          Status

A     Improve general and application controls over This condition has not been
      financial management systems.                           corrected and is repeated in
                                                              fiscal year 2002.
B     Improve timeliness of transaction entry and This condition has not been
      reconciliation.                                         corrected and is repeated in
                                                              fiscal year 2002.
C     Improve controls over undelivered orders and accruals. This condition has not been
                                                              corrected and is repeated in
                                                              fiscal year 2002.
D     Improve controls over property, plant, and equipment. This condition has not been
                                                              corrected and is repeated in
                                                              fiscal year 2002.
E     Improve reconciliation of intra-departmental and intra- This condition has not been
      governmental transactions.                              corrected and is repeated in
                                                              fiscal year 2002.
F     Improve Indian Trust Fund management controls.          This condition has not been
                                                              corrected and is repeated in
                                                              fiscal year 2002.
G     Improve financial accounting processes at the U.S. This condition has not been
      Geological Survey.                                      corrected and is repeated in
                                                              fiscal year 2002.
H     Improve controls over the revenue process.              This condition has not been
                                                              corrected and is repeated in
                                                              fiscal year 2002.
I     Improve controls for recording and disclosing claims This condition has not been
      and assessments.                                        corrected and is repeated in
                                                              fiscal year 2002.
J     Improve controls over the Aquatic Resources Trust This condition has been
      Fund.                                                   corrected.




                                           21
                                                                                      Exhibit I
                       U.S. DEPARTMENT OF THE INTERIOR

                       Summary of the Status of Prior Year Findings
                                   September 30, 2002




Ref   Condition Area                                          Status

K     Improve recording of budgetary transactions.  This condition has not been
                                                    corrected and is repeated in
                                                    fiscal year 2002.
L     Improve controls over Interior Franchise Fund This condition has not been
      financial reporting.                          corrected and is repeated in
                                                    fiscal year 2002.
M     Improve controls over credit card purchases.  This condition has been
                                                    corrected.

N     Improve accounting for inventory.                       This condition   has   been
                                                              corrected.

O     Improve deferred maintenance reporting.                 This condition has not been
                                                              corrected and is repeated in
                                                              fiscal year 2002.
P     Debt Collection Improvement Act of 1996.                This condition has not been
                                                              corrected and is repeated in
                                                              fiscal year 2002.
Q     Prompt Payment Act.                                     This condition has been
                                                              corrected.

R     Section 113 of Public Law 104-208 – Advances for This condition has not been
      Interior Franchise Fund.                         corrected and is repeated in
                                                       fiscal year 2002.
S     Federal Financial Management Improvement Act of This condition has not been
      1996 – Systems Requirements.                     corrected and is repeated in
                                                       fiscal year 2002.
T     Federal Financial Management Improvement Act of This condition has not been
      1996 – Accounting Standards.                     corrected and is repeated in
                                                       fiscal year 2002.
U     Federal Financial Management Improvement Act of This condition has not been
      1996 – United States Standard General Ledger.    corrected and is repeated in
                                                       fiscal year 2002.




                                           22
                                                                        ATTACHMENT 2

               United States Department of the Interior
                      OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240




DEPARTMENT OF THE INTERIOR
TOP MANAGEMENT CHALLENGES

   1. Financial Management

Department of the Interior (DOI or the Department) financial management does not
maintain current and accurate financial data during the course of the year. As a result, the
Department undertakes a massive effort every year to compile, analyze, and correct its
financial data in order to prepare accurate financial statements. DOI must enhance both
the depth and breadth of its financial management personnel, must improve its policies
and procedures to ensure consistent accounting practices, and must continue its endeavor
to secure funding for an updated, integrated financial management system Department-
wide.

DOI has made some progress in correcting financial management weaknesses. However,
it has not yet made the major changes needed to address the longstanding weaknesses in
financial management.

   2. Information Technology

Many shortcomings in policies, procedures, and controls need to be addressed before
Information Technology (IT) systems and data at DOI are adequately protected.
According to the Office of Inspector General (OIG) and General Accounting Office
(GAO) reports, establishing effective security over information systems remains a
material weakness in DOI.

OIG’s September 2002 Executive Summary of the Annual Evaluation of the Security
Program and Practices Over the Department of the Interior’s Non-National Security
Information Systems reported that:

       •   DOI had not ensured that all IT systems have security plans, empowered
           Chief Information Officers (CIOs) to fulfill all legislative duties and
           responsibilities necessary to effectively carry out the program, issued adequate
           guidance for reporting security incidents, adequately tested and evaluated
           security controls, and effectively trained key personnel.

DOI had not assessed risks and determined the appropriate level of security to adequately
protect all IT systems. Further, the bureaus were not able to adequately manage risks for
systems and supporting operations and assets because they have not yet identified all IT
systems.
        •   Contractors engaged by the court-appointed Special Master conducted
            penetration tests of DOI networks and systems, finding that some systems that
            had been reconnected to the Internet (on December 6, 2001, a U.S. District
            Court Judge prohibited DOI from connecting to the Internet because Indian
            trust systems and data were not adequately safeguarded), such as those
            operated by the National Business Center and the Geological Survey,
            continued to have security weaknesses.

According to the October 2002 GAO Report No. GAO-03-225, DOI continues to have
“computer systems riddled with weaknesses that make them highly vulnerable to
computer-based attacks and place a broad range of critical operations and assets at risk of
fraud, misuse, and disruption.”

DOI needs to establish a monitoring program to ensure that the data contained in
electronic information systems is factually based and therefore reliable for use in
decision-making and historical support. DOI needs to develop and implement archival
procedures to ensure that essential physical operating records are preserved and protected
for retrieval and use. Such records provide the bases for past scientific conclusions and
management decisions.

DOI information technology systems have achieved Level 1 (establishing documented
security policies and standards) under the five-level framework used by the General
Accounting Office to assess the security of Federal information technology systems. By
fiscal year 2005, DOI plans to conduct a comprehensive information technology
assessment and implement a security plan that will meet Level 5 requirements. In
December 2002, the CIO for DOI was empowered to meet the information system
management requirements of the Clinger-Cohen Act.

   3.   Health, Safety and Emergency Management

DOI must protect millions of visitors, hundreds of thousands of employees and
volunteers, thousands of facilities, and millions of acres of property from both internal
and external threats. Risk assessments conducted by the OIG and other entities conclude
that:

        •   Water and power facilities and national icons remain vulnerable to outside
            threats.

        •   Visitor safety and security remains inadequate at many DOI parks and other
            facilities.

        •   Employee safety and security remains inadequate at many DOI facilities.

        •   The physical isolation of some DOI lands and facilities increases their
            vulnerability to threats and inhibits DOI’s response time.



                                             2
DOI has undertaken steps to address these vulnerabilities, but needs to continue these
efforts within an aggressive timeframe.

   4. Maintenance of Facilities

DOI must maintain a large and aging inventory of bridges, dams, schools, buildings,
irrigation systems, roads, historical buildings, and other structures entrusted to its care.
The deferred maintenance backlog on this inventory was estimated at $12.1 billion. The
present decentralized maintenance operations, with their complex funding mechanisms
and little or no standardized information, processes, or procedures, have contributed to
this backlog. We issued a report in December 2001 outlining a comprehensive approach
to maintenance management within DOI.

       •   DOI needs to implement a comprehensive maintenance management system
           to effectively plan, prioritize, conduct, and track the condition and
           maintenance of facilities within all bureaus, especially the National Park
           Service.

       •   DOI needs to provide long-term leadership to keep money available to address
           the long-standing issues of deferred maintenance.

DOI has adopted a computer-based facilities maintenance management system, which it
tested at multiple locations during fiscal year 2002, and has been assessing the condition
of facilities, developing a 5-year maintenance plan, and establishing goals to reduce the
deferred maintenance backlog.

   5. Responsibility to Indians and Insular Areas

DOI continues to labor to meet its overall trust responsibilities to American Indians, to
improve Indian Education, and to address long-standing challenges with financial and
operational management in the Insular Area governments.

The challenges facing the Department in the trust arena are being addressed under the
scrutiny of a Federal District Court.

Low scores on standardized tests, recruitment and retention of qualified teachers, and the
poor condition of Indian school facilities are issues that plague Indian education. There
are 171 Indian schools and 14 dormitories, which serve about 50,000 Indian students in
23 states. OIG audits have identified problems in construction and operational planning.
To improve Indian educational opportunities, DOI has developed programs, such as those
for early childhood and family literacy, to begin to moderate the influences of economic
and family conditions on students’ academic performance. In addition, Congress
substantially increased the funds that DOI can use to repair some education facilities and
replace others.




                                              3
Insular area governments experience difficulties in accurately accounting for
expenditures, collecting taxes and other revenues, controlling the level of expenditures,
and delivering program services. Contributing to the long-standing problems is the fact
that, although each of the Insular Areas has an internal audit organization - known as
public auditors, these organizations, with few exceptions, lack the staff, resources, or
independence necessary to provide effective and objective audit coverage of local
government operations.

To help address Insular Area challenges, the Secretary upgraded the head of the Office of
Insular Affairs to the Assistant Secretary level. DOI also announced that it will allocate
millions of dollars in discretionary grants among Insular Area governments by assessing
the strength and independence of Insular Area public auditor offices and the
responsiveness shown to our audit recommendations and DOI and other official inquires.

   6. Resource Protection and Restoration

DOI resource managers face the challenge of safeguarding our natural resources, while
meeting increasing and often competing demands from users of DOI lands and facilities.
Major contributors to the challenge of effective resource management include increased
population, environmental issues, shortages of resources such as water, oil and gas, and
demands for more recreation areas.

DOI faces challenges in implementing policy goals for repairing and maintaining
ecosystems within budget limitations. Of special concern are wildfires, water allocations,
a changing land and recreation base, and invasive (non-native) species.

Federal lands account for 30 to 35 percent of energy produced in the United States. The
primary challenge is developing energy resources while protecting natural resources,
including endangered plant and animal species.

DOI has implemented a fire management plan in coordination with the Forest Service
and state and local governments. DOI is working with the State of Florida and local
governments to implement the Everglades Restoration Program. The National Invasive
Species Council, established by DOI in 1999 to combat the threat of invasive species, is
working to establish Federal and non-Federal task teams to implement the action items of
the Council’s 2001 Management Plan. According to an October 2002 General
Accounting Office report, however, Federal efforts to control these species, including the
Council’s Plan, are stymied by a lack of “clear long-term outcomes and quantifiable
measures of performance.”

   7. Revenue Collections

Although DOI collects over $9.3 billion in revenues each year, OIG and GAO reports
have shown that bureaus could enhance revenues collected for royalty payments,
recreational fees, and costs recovered for services provided. In 16 reports issued over the
last five years, OIG identified more than $141 million in lost or potential additional



                                             4
revenues, including $71.7 million of under collected royalties, $17.5 million lost because
excess lands were not sold, and $6.6 million of unrecovered firefighting costs. Also,
since 1998, OIG, MMS, and the Department of Justice have recovered underpaid
royalties of about $500 million through settlements with energy companies resulting from
our investigations.

MMS collects the bulk of the revenues realized by the DOI, over $5 billion a year. Most
of those revenues have been collected in the form of royalty in value (RIV) payments.
An OIG evaluation issued in September 2002 concluded that RIV is much more
susceptible to underreporting that taking royalties in kind (RIK). Under RIK, royalties
are received as products (oil/gas) and then marketed by MMS. In its document,
“Implementing Royalty in Kind, Business Processes and support Systems, Road Map to
the Future,” MMS outlined a strategy to move from piloting RIK to implementing an
operational RIK program.

   8. Procurement, Contracts, and Grants

DOI spends substantial resources each year in contracting for goods and services and in
providing Federal assistance to states and Indian organizations. Procurement has
historically been an area subject to fraud and waste government-wide, and managing
procurement activities is an unending challenge requiring constant attention. In
FY 2002, the volume of procurement activity was about $6.9 billion, of which over
$3.8 billion was provided to states and Indian tribes in grants and other types of Federal
aid assistance

DOI has reported on the material inadequacy of BIA's acquisition management
organization, policies, procedures, and guidelines since FY 1991. DOI has also reported
since 1999 that controls over management oversight and accountability in FWS's Federal
Aid Program have been materially weak because of inadequate management controls and
lack of a centralized audit follow-up program and guidance governing the administration
of the Program. Implementation of corrective actions has not yet been completed.

OIG completed an audit of procurement activities in DOI's integrated charge card
program. We found that improper transactions went undetected because DOI had not
established an effective process to review and validate purchases, sufficiently monitor
and adjust credit limits, or deactivate ex-employee cards. The total effect of these
deficiencies included not only the potential loss of monetary resources, but also the
potential loss of confidence in the integrity of DOI operations.




                                             5
